<html>
<title> - INSTABILITY IN KYRGYZSTAN: THE INTERNATIONAL RESPONSE</title>
<body><pre>[Joint House and Senate Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
         INSTABILITY IN KYRGYZSTAN: THE INTERNATIONAL RESPONSE

=======================================================================

                                HEARING

                               before the

           COMMISSION ON SECURITY AND COOPERATION IN EUROPE:
                        U.S. HELSINKI COMMISSION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2010

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe
            
            
            
            
            
            
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
            
            
            
            


                  Available via http://www.csce.gov
                   
                          ______________   
                             
                             
                 U.S. GOVERNMENT PUBLISHING OFFICE
                          
95-207                    WASHINGTON : 2015             
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                           
                             
               
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,              ALCEE HASTINGS, Florida,
  Chairman                               Co-Chairman
CHRISTOPHER DODD, Connecticut           EDWARD MARKEY, Massachusetts
SAM BROWNBACK, Kansas                   LOUISE McINTOSH SLAUGHTER
SAXBY CHAMBLISS, Georgia                New York
RICHARD BURR, North Carolina            MIKE McINTYRE, North Carolina
ROGER WICKER, Mississippi               G.K. BUTTERFIELD, North Carolina
JEANNE SHAHEEN, New Hampshire           JOSEPH PITTS, Pennsylvania
SHELDON WHITEHOUSE, Rhode Island        ROBERT ADERHOLT, Alabama
TOM UDALL, New Mexico                   DARRELL ISSA, California


                      EXECUTIVE BRANCH COMMISSIONERS

                  MICHAEL POSNER, Department of State
               ALEXANDER VERSHBOW, Department of Commerce
               
               
               
                                 (II)
               
               
               
               
               
               
               
         INSTABILITY IN KYRGYZSTAN: THE INTERNATIONAL RESPONSE

                              ----------                              

                             July 27, 2010
                                MEMBERS

                                                                   Page
Hon. Alcee Hastings, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Joseph R. Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     2

                               WITNESSES

Robert O. Blake, Assistant Secretary of State for South and 
  Central Asia, U.S. Department of State.........................     3
Arslan Anarbaev, Charge D'Affaires, Embassy of the Kyrgyz 
  Republic.......................................................    12
Martha Olcott, Senior Associate, Carnegie Endowment for 
  International Peace............................................    15
Bakyt Beshimov, Visiting Scholar, Massachusetts Institute of 
  Technology.....................................................    16
  
  
  
  
  
  
  
                                (III)  
                                
  
  
  


                       INSTABILITY IN KYRGYZSTAN:



                       THE INTERNATIONAL RESPONSE

                              ----------                              


                             JULY 27, 2010

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.

    The hearing was held from 2:30 to 3:39 p.m. EST, 210 Cannon 
Office Building, Washington, DC, Hon. Alcee Hastings, Co-
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Members present: Hon. Alcee Hastings, Co-Chairman, 
Commission on Security and Cooperation in Europe and Hon. 
Joseph R. Pitts, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present:  Robert O. Blake, Assistant Secretary of 
State for South and Central Asia, U.S. Department of State, 
Arslan Anarbaev, Charge D'Affaires, Embassy of the Kyrgyz 
Republic, Martha Olcott, Senior Associate, Carnegie Endowment 
for International Peace and Bakyt Beshimov, Visiting Scholar, 
Massachusetts Institute of Technology.

 HON. ALCEE HASTINGS, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Mr. Pitts, thank you very much for being 
here. I'd like to open our hearing. Welcome to the hearing on 
Kyrgyzstan. The country has been much in the headlines since 
the bloody uprising that brought down a president in April. In 
June, ethnic clashes in the south drew sad headlines all over 
the world. Apart from analyzing the causes of these events, 
this hearing is proposed to examine the prospects for better 
news in the future for Kyrgyzstan.
    I've been to Kyrgyzstan several times and, considering how 
much promise the country held in the '90s, its arc since then 
has been marked by disappointment. In Central Asia, Kyrgyzstan 
had the most highly developed civil society and seemed headed 
for democratic development.
    But corrupt authoritarian rule, sadly typical of many 
states around the world and some of the post-Soviet states, led 
to clashes between the authorities and a civil society willing 
to defend its freedoms and prerogatives. The '05 Tulip 
Revolution that led to the ouster of former President Akayev 
brought no relief. The tenure of his successor, President 
Bakiyev, was marked by centralization of power and even worse 
corruption, flagrant human rights violations and the 
criminalization of politics.
    When demonstrations finally rose up against the regime in 
April of 2010, they were met by gunfire. Dozens died, ushering 
in a bloody beginning to a new chapter in Kyrgyzstan's post-
Soviet history. The interim government which came to power 
after President Bakiyev's flight knew firsthand the defects of 
top-down presidential rule. They decided to create a 
parliamentary system with checks and balances and announced 
plans to hold a referendum on constitutional changes along 
these lines.
    However, on June 10, there was an outbreak of savage 
violence in several southern cities between Kyrgyz and Uzbeks. 
In the worst interethnic bloodshed in decades. There are 
witnesses here who may give us a better idea as to how many 
people were killed or sometimes butchered, even, in the most 
horrific manner. And about 100,000 people fled to Uzbekistan, 
while 400,000 in all were displaced.
    Nevertheless, the referendum went ahead on June 27, passing 
by wide margins, according to official tallies. As a result, 
Kyrgyzstan is going from a presidential to a parliamentary 
republic. The head of the interim caretaker government, Roza 
Otunbayeva, who was ambassador to Washington in the early '90s, 
is now the president for a transitional period, until 2012.
    Mr. Secretary, I might add, she came to one of our OSCE 
Parliamentary Assembly meetings before these matters reached 
their head and was appealing tremendously to us to try and take 
action. It was interesting to know how much energy she put in 
it. And it gives me hope that the OSCE may be able to play a 
substantial role.
    Today, thankfully, the situation seemingly is more stable, 
but where we go from here is uncertain. Kyrgyzstan is the only 
country in the region to shift the balance of power to its 
parliament and how the experiment will fare is difficult to 
predict. But we, at least, are well-acquainted with the 
problems that centralized and corrupt presidential rule has 
produced. Equally unclear is how well the country will manage 
to reconcile its citizens of diverse nationalities, which will 
be critical if long-term stability is to be achieved.
    Our witnesses are superbly qualified to help elucidate the 
situation for us. But before turning to them, I would invite my 
fellow present panelists and my cosponsor of this resolution 
with reference to Kyrgyzstan--Congressman Pitts, to have any 
remarks he might wish to make.

HON. JOSEPH R. PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Pitts. Thank you, Mr. Chairman, and thank you for your 
attentiveness, your leadership in regard to this matter and 
others, as far as the rule of law and promotion of democracy 
and freedoms all around the world. Thank you for holding this 
important hearing on Kyrgyzstan. As you all know, Kyrgyzstan's 
interim government recently deposed the autocratic government 
of President Bakiyev. The interim government drafted a new 
constitution, shifting the balance of power in the nation from 
a centralized executive authority to its parliament. And this 
transition would make Kyrgyzstan the only country in the region 
to do so.
    On June 27, Kyrgyzstan's authorities succeeded in creating 
the necessary environment for the conduct of a peaceful 
constitutional referendum. And I'm optimistic that the 
caretaker government will build on this foundation to ensure 
that parliamentary elections, planned for October, are 
conducted in full accordance with international standards.
    These important steps--and I recently introduced a 
resolution with Chairman Hastings and Congressman Smith 
supporting the government reforms, while calling on the OSCE to 
continue its assistance in the region. It is my hope that the 
new constitutional order will provide greater freedom, 
democracy and human rights in Kyrgyzstan. However, I am very 
concerned about the ethnic tensions and the violence that has 
occurred in the southern portion of the country.
    The outbreak of violence forced thousands of people to flee 
their homes. Several hundred or thousands were killed. Tragic 
ethnic hostility has threatened the livelihoods and safety of 
thousands of people. And the interim government has yet to 
fully extend its authority in the south and build the capacity 
that is needed to address the underlying social, political and 
economic tensions in that region.
    The government must bring to justice those who took part in 
the recent violence and ensure that its military and police do 
not commit abuses. It must be steadfast in prosecuting those 
who committed these crimes. And the Kyrgyzstan government must 
offer equal protection under the law for all of its citizens. 
The OSCE has agreed to provide a policy advisory group to 
Kyrgyzstan, with the purpose of building trust among the people 
in the south.
    And it is my profound hope they are successful and prudent 
in their actions. I look forward to hearing our witnesses 
today. Again, thank you, Mr. Chairman, for your leadership and 
for scheduling this hearing. I thank all of those who've come 
for being here and I yield back.
    Mr. Hastings. Thank you very much, Congressman. We'll start 
now with Assistant Secretary Robert O. Blake, who is the 
assistant secretary for South and Central Asian affairs.
    And ladies and gentlemen, to allow any of you that have an 
interest in the full biographies--it's not that he does not 
have a full one. Without me reading it into the record, it will 
be submitted. And at our desk outside are the biographies of 
the secretary, as well as the other fine witnesses we have here 
today. Mr. Secretary, the floor is yours.

  ROBERT O. BLAKE, ASSISTANT SECRETARY OF STATE FOR SOUTH AND 
             CENTRAL ASIA, U.S. DEPARTMENT OF STATE

    Mr. Blake. Mr. Chairman, Congressman Pitts, thank you very 
much for your invitation here today. And thank you very much 
for your leadership in organizing this hearing today.
    Last week, I had the opportunity to visit Bishkek and visit 
Osh in Southern Kyrgyzstan on July 18 to 19, so I'm very 
pleased to be here today to give you the administration's fresh 
perspective on events in Kyrgyzstan.
    Again, I want to thank you and the committee members for 
your interest and for your continued engagement on U.S. policy 
in Central Asia. The Helsinki Commission has demonstrated 
exemplary leadership and bipartisan cooperation in helping us 
to forge a strong and sustained partnership between the United 
States and the five countries of Central Asia.
    Mr. Chairman, Central Asia is a region of significant 
importance to U.S. national interests. Recognizing the 
uniqueness of each of the five Central Asian nations and their 
sovereignty and independence, U.S. policy supports the 
development of fully sovereign, stable, democratic nations, 
integrated into the world economy and cooperating with one 
another, with the United States and our partners to advance 
regional security and stability.
    We are not in any competition with any country over 
influence in Central Asia. We seek to maintain mature bilateral 
relations with each country based on our foreign policy goals 
and each country's specific characteristics and dynamics. With 
regard to Kyrgyzstan, our primary foreign policy interest is to 
facilitate its development as a stable, democratic state that 
respects the rights of its citizens.
    Kyrgyzstan is also a significant contributor to security in 
Afghanistan, by hosting the Manas Transit Center, through which 
nearly all U.S. troops enter and leave the theater. Maintaining 
the Manas Transit Center is an important national security 
priority for the United States, but that center can only be 
maintained if Kyrgyzstan itself is stable and a reliable 
partner and we ourselves are totally transparent in the 
functioning of that center. The center is an important part of 
our partnership, but our focus has been and remains developing 
our overall political, economic and security relationship.
    Mr. Chairman, as you know and as you said, in April of this 
year, a popular uprising overthrew President Bakiyev and 
brought to power a provisional government headed by Roza 
Otunbayeva, an experienced diplomat and consensus-builder. As 
you both noted, clashes between ethnic Kyrgyz and Uzbeks in 
Southern Kyrgyzstan from June 10 to June 14 tested the 
provisional government. The violence killed an estimated 350 
people and displaced about 400,000, with approximately 100,000 
of those going to neighboring Uzbekistan. The security 
situation has since generally stabilized, although tensions 
still remain in the south.
    Humanitarian organizations are currently transitioning from 
emergency relief to recovery, reconstruction and 
reconciliation. Of the 100,000 ethnic Uzbeks who fled to 
neighboring Uzbekistan, virtually all returned to Kyrgyzstan 
within two weeks. On June 27, the citizens of the Kyrgyz 
Republic overwhelmingly voted to adopt a new constitution in a 
national referendum and affirmed Roza Otunbayeva as president 
for the transitional period, until December of 2011. And she 
was inaugurated on July 3.
    While we are encouraged that there has not been a 
recurrence of violence since June, President Otunbayeva and the 
provisional government face daunting challenges. Fear and 
tension remain, especially among ethnic Uzbeks in the south.
    In Uzbekistan's displaced persons' camps, although there 
were no reports of force to promote returns, reports of 
psychological pressure, monetary incentives, threats of loss of 
citizenship, coercion and/or encouragement to participate in 
the June 27 referendum and concerns about family members who 
remained in Kyrgyzstan all may have factored into the rapid 
repatriation of those who were displaced.
    Most of the estimated 75,000 persons who remain displaced 
in Kyrgyzstan and those who returned from Uzbekistan currently 
reside with host families. Others are squatting in abandoned 
buildings or camping on the sites of their destroyed homes. An 
estimated 1,850 homes were burned or otherwise destroyed in Osh 
and Jalalabad. An undetermined number of homes are reported to 
be damaged and will need repair before they can be inhabited 
again.
    Mr. Chairman, many ethnic Uzbek businesses in the south 
remain closed and some Uzbeks are unable to return to work 
while remaining with host families and in community shelters. 
Some, confronting the destruction of fields and crops, 
anticipate food insecurity in the fall and winter.
    Reports that the Kyrgyz government intends to expropriate 
property in destroyed Uzbek neighborhoods as part of an urban-
renewal effort--replacing traditional houses organized into 
ethnic neighborhoods with modern apartments for ethnically 
mixed communities--are feeding fears of disenfranchisement and 
possible renewed violence.
    The United States supports a number of steps that we 
believe should be taken to promote reconciliation. Right now, 
our principal focus is on providing humanitarian assistance to 
all those who were displaced by the violence. We need to make 
sure that the people have the ability to return to their homes, 
to have shelter for the winter, to help schools reopen and to 
meet near-term needs.
    As always in such humanitarian emergencies around the 
world, the United States has been one of the leading donors, 
committing up to $48 million thus far to help the people of 
Kyrgyzstan. This aid is in addition to normal foreign aid 
levels, which will continue as planned. We've also been working 
with Kyrgyzstan's neighbors and the international community to 
support a high-level international donors' conference, which 
took place today in Bishkek.
    As a second step going forward, we believe that security 
must be boosted to prevent future violence. The United States 
welcomes the decision by the OSCE during the recent informal 
meeting in Kazakhstan to agree to a police advisory group that 
will be deployed to Kyrgyzstan to support the efforts of the 
authorities to reduce interethnic tensions, restore public 
order and increase police capacities.
    The OSCE and Kyrgyzstan concluded that the group would 
comprise 52 police officers, with a possibility of sending an 
additional 50 officers at a later stage. The group would be in 
Kyrgyzstan for four months, with a possibility to extend as 
needed. We hope the government of Kyrgyzstan and the OSCE can 
work together to ensure that this force is deployed as soon as 
possible.
    A third step to ensure reconciliation is that the local 
Kyrgyzstan law enforcement and judicial institutions must be 
reliable and credible and have the confidence of the local 
people. The security services in Kyrgyzstan must fulfill their 
responsibilities in a professional and accountable manner so 
that they can win the confidence of all of Kyrgyzstan's 
communities.
    In Osh, I heard many disturbing reports of arrests of human 
rights activists, arrests of Uzbek community leaders and 
reports of torture and other abuses while in custody. I also 
heard complaints that the mayor of Osh does not act in a 
balanced manner and that he is pursuing a nationalist agenda. I 
shared these concerns with government officials and urged that 
they be addressed on an urgent basis. The United States is 
prepared to work with the government of Kyrgyzstan to deal with 
the challenges of strengthening the professionalization and 
accountability of the police.
    A fourth and very important step for achieving 
reconciliation is that there needs to be a serious 
investigation launched into the causes of the violence in June, 
both to help understand how to prevent fresh outbreaks of 
violence, but also to ensure accountability for those who were 
responsible. A number of factors likely contributed to the 
violence, but what is important is to have a systematic and 
credible inquiry into what those factors were.
    The United States welcomes President Otunbayeva's decision 
to establish a national commission of investigation, as well as 
her decision to ask Finnish parliamentarian and vice president 
of the OSCE Parliamentary Assembly, Kimmo Kiljunen, to 
constitute an international investigation with the support of 
the U.N., the OSCE and Nobel Prize winner Martti Ahtisaari that 
will complement the national investigation in Kyrgyzstan.
    Finally, one of our top priorities is to help Kyrgyzstan 
establish democracy. Part of the U.S. assistance package to 
Kyrgyzstan includes funding to support free and fair 
parliamentary elections in October.
    The U.S. will provide assistance for central election 
committee capacity-building, local election officials' 
training, civil society support, elections outreach, journalist 
training, media monitoring and coverage, voter-list review, 
public information campaigns, election observation by domestic 
and international observers, parallel vote tabulation, dispute-
resolution training and assistance and voter education. We are 
also providing long-term support to strengthen democratic 
governance, reconciliation, civil society, independent media 
and human rights.
    In closing, Mr. Chairman, the United States has a strong 
commitment to Kyrgyzstan. We and the international community 
want to work with the provisional government and with the 
people of Kyrgyzstan to help the nation establish democracy, 
provide assistance to all those who were affected by the recent 
violence and encourage reconciliation to assist the country's 
stabilization.
    While we recognize that the situation remains very fragile 
and that there are real risks, we remain hopeful that with the 
goodwill and sustained efforts of all, including in the United 
States and the international community, the people of 
Kyrgyzstan can chart out for themselves a more hopeful, 
democratic and stable future.
    Again, Mr. Chairman, I want to thank you for your 
leadership today in hosting this hearing and I'd be glad to 
take any questions that you have.
    Mr. Hastings. Thank you very much, Mr. Secretary. I'd like 
to begin questioning with my colleague, Congressman Pitts.
    Mr. Pitts. Thank you. Thank you, Mr. Chairman. Thank you, 
Mr. Secretary, for your statement. A couple of questions: 
Relatives of both the previous Kyrgyz presidents were notorious 
for getting rich off of our base in Manas. How can we help 
President Otunbayeva to prevent the same thing from happening 
again?
    Mr. Blake. Thank you very much, Congressman, for that 
question. We are in the process now of renegotiating those 
contracts at the transit center in Manas. The Department of 
Defense has competitively rebid the Manas fuel contract. And we 
want to ensure that whatever contract is finally agreed on will 
be done in a very transparent and reliable manner.
    And one of the things that we've done is that we've posted 
on our embassy's website in Bishkek information about our 
assistance but also about these fuel contracts so that there 
can be maximum transparency and so that we can, again, 
encourage the same from our friends in the government.
    Mr. Pitts. Parliamentary elections are scheduled for 
October. It is critical that these elections be, and be seen 
as, free and fair. What can the OSCE and the United States 
government do to help ensure that they are free and fair?
    Mr. Blake. Let me say, there are a number of things that I 
think we and the OSCE can do. First of all, with respect to the 
OSCE, the OSCE, as I said, is going to plan to deploy a police 
advisory group. We are hoping that that can be done by early 
September. And then there's an option to deploy more if they 
feel that those would be necessary.
    I think that will help a lot to encourage, first, a more 
accountable police force, particularly in the south where it's 
going to be needed, and that will help voter turnout out there. 
The OSCE is also beefing up its own presence in Bishkek, where 
I think they have already played a very, very helpful role. And 
our embassy and the EU and others are working very closely with 
the OSCE, so we welcome that.
    In terms of the elections themselves, of the $48 million 
that the United States is providing now, about 5 million of 
that will be for democracy. And a significant portion of that 
money will be to support free and fair elections in October. I 
ran through in my statement some of the things that we're going 
to be doing to help ensure that.
    But in that regard, we'll be working very closely with the 
OSCE and also with the U.N. and with the European Union, all of 
whom also plan to take very important and aggressive roles in 
this.
    Mr. Pitts. Now, various groups, including some government 
officials, have been protesting about the police advisory group 
sent in by OSCE. Will the police advisors be involved in 
training those police in the southern part of the country? Will 
they be involved in anticorruption training? What will be the 
extent of some of the training?
    Mr. Blake. Congressman Pitts, their mission is advising and 
monitoring. So they will basically be partnering with the 
police down in the south primarily, in Osh and Jalalabad, to go 
out on their patrols with them and, again, to mentor them as 
they go about their business. And hopefully, again, to provide 
some visible international presence down there, which we hope 
will, again, provide some confidence for the local communities 
but also help to prevent future violence.
    Mr. Pitts. Could these police face security problems of 
their own?
    Mr. Blake. They could. I mean, of course, they will be with 
the local police who themselves will be armed. So I think that, 
by itself, will ensure a measure of security for them.
    Mr. Pitts. Finally, how have the neighbors of Kyrgyzstan 
responded to the events since April? Is anything similar 
possible in other Central Asian countries? What's your take on 
progress?
    Mr. Blake. Well, let me take those in order. I think first, 
with respect to Uzbekistan, Uzbekistan behaved with great 
restraint and also, we think, very admirably. They were very 
quick to accept the 100,000 or so refugees that came streaming 
across from Osh and Jalalabad. They worked very cooperatively 
with the UNHCR, the U.N. High Commissioner for Refugees, which 
hasn't been in Uzbekistan since 2005. So they allowed UNHCR in, 
worked very cooperatively with them to establish camps for all 
of those who were displaced.
    About a month ago I had a chance to visit those camps. And 
I must say, I was very impressed with what they had done in a 
very short time to accommodate those refugees. As I said in my 
statement that most of those went back in about two weeks. But 
when we met with members of the provisional government and 
President Otunbayeva last week, they were all very 
complimentary of the ongoing good communication that they have 
with the government of Uzbekistan.
    Mr. Pitts. What about the Kazakhstani chairmanship? How 
have they responded?
    Mr. Blake. Again, in their capacity as the OSCE chairman-
in-office, I think also Kazakhstan has played an important 
role. You know, again, they also were quick to help to respond 
to the April crisis and to help mobilize the OSCE as quickly as 
possible.
    They have also been supportive of the police advisory 
group. It was during the ministerial that they hosted in Almaty 
that the ministerial approved that police advisory group. And I 
think their behind-the-scenes efforts to get that done were 
important.
    But we're going to need to continue to see Kazakhstan's 
leadership on this because I think, as you say, there are still 
many, many challenges to be faced here. We may need to deploy 
more of that police advisory group in which case that would 
have to be a decision that would be approved by the permanent 
council of the OSCE. Again, we'll need Kazakhstan's support for 
that.
    And I think we'll need their support for keeping their own 
borders open. One of the things I heard when I was in Osh is 
that they want to be sure that as the agricultural harvests 
come in, that they will be able to export both to Uzbekistan 
and Kazakhstan, both of which are important markets for them.
    Mr. Pitts. Yeah. Thank you, Mr. Chairman.
    Mr. Hastings. Thank you very much, Congressman. Mr. 
Secretary, I have several questions, but I'm fearful about 
votes. And I'm going to truncate my requests and submit to you 
for you to follow up several written questions. I want to have 
an opportunity to, at the very least, have Congressman Pitts 
and I hear the other important witnesses here as well.
    But I would ask about other actors. It is easy for you and 
for us here as policymakers to point to various countries and 
NGOs and subsets of groups. But during your entire testimony, I 
didn't hear the United Nations mentioned. And I did hear a 
reference, a positive one, to the European Union.
    I also did not hear--and believe--that India has a role to 
play. We, of course, have a base there, as does Russia. And we 
have tried to describe our efforts with Russia as some kind of 
pragmatic undertaking. And yet we know that this is a post-
Soviet country and that Russia has played, for lack of a better 
expression--and I'm always careful when I speak about Russia 
but I can't help but believe, knowing what I do in Central 
Asia, that a portion of the role that they have played, by 
some, has been manipulative. And toward that end, it gives us a 
difficult picture and I'm just curious who is trying to 
coordinate the efforts.
    If I could turn to another part of the world: Everyone in 
this room suffered in their hearts with the earthquake in 
Haiti. And the world responded in many respects by offering 
assistance. But as we speak today, there is a concomitant 
hearing going on that I can't participate in that I can assure 
you is going to identify that on the ground, those coordinated 
efforts are lacking and that the people are not receiving the 
benefits from the world's outpouring.
    I daresay you could go through this United States Congress 
and get past the Helsinki Commission and the foreign affairs 
committee and couldn't find a hundred members that could point 
to Kyrgyzstan on the map. It seems so far away from us and yet 
so near and yet so critical with reference to Afghanistan. And 
yet, clearly, an interest area that is vital to us all.
    I would underscore what Congressman Pitts pointed out to 
you as a key role that should be played by the Kazakh chair-in-
office. It's not as if Kyrgyzstan is not in their backdoor. And 
I also called for and would urge you in your capacity in 
Central Asia with my limited experience in the area, the one 
thing that I found is a lack of regional cooperation coming 
about largely because people haven't asked them.
    We haven't asked--us I'm talking about, not you--but we 
haven't asked President Karimov what his real thoughts are with 
reference to how we handle this matter. The same would be for 
Nazarbayev or we hear from his chair-in-office, the foreign 
secretary--or foreign minister/secretary Saudabayev.
    But this is a difficult problem. And here we have--I'm 
talking the United States now--an opportunity to really 
assist--no matter how it came about, whether people agree with 
the referendum, disagree with the referendum--the referendum at 
least speaks to where we come from in terms of our values with 
reference to a democracy.
    And for a post-Soviet country to, whatever the motive, pass 
a measure that will allow for the development of a parliament 
that would control and not an autocracy, I think is 
complimentary. Never mind the motives. I get past that and get 
to what we ought to be doing to try to undergird what has 
happened at this point, recognizing all of the dangers.
    Mr. Blake. Well, that's a terrific question. There are 
several questions in there. Let me try to answer them. First of 
all, with respect to the U.N. role. If I didn't mention the 
U.N., that was an oversight because the U.N., I think, has been 
playing quite a helpful coordination role. They've activated 
what they call their cluster system.
    And when I was in Bishkek, I had several meetings where we 
met with the U.N., the U.N. resident representative, the head 
of the OSCE, the head of the EU there and many of the key 
donors. And they meet on at least a weekly basis and are very 
closely coordinated. The Kazakh ambassador is part of that, as 
is the Russian ambassador and the Kazakh chairman-in-office 
special ambassador also comes in very frequently.
    So I think there's very good coordination now in the 
international community on this matter. And we intend to keep 
that up and, if anything, enhance it now because we've just had 
this very important donor's meeting today, which quite a large 
amount of money was pledged.
    You're recalling from your Haiti experience again. So I 
think we'll need to make sure that we remain very tightly 
knitted up and that we're not duplicating each other's efforts. 
And we intend to do that.
    With respect to the Russian role, let me just say that, 
again, I think that we have all been very pleased with the good 
coordination that we've had with the Russians at many different 
levels, starting with the president and President Medvedev, but 
also in Bishkek, here in Washington, in Moscow--in many, many 
different areas.
    And again, we've really made an effort to try to work with 
the Russians and I think the Russians have been very 
supportive. They have supported this decision to send a police 
advisory group. They have supported beefing up the OSCE 
presence. So again, I think the Russians have played, on the 
whole, a very constructive role. And we welcome that and we're 
going to continue to work closely with them.
    One of the areas that we have talked about working is the 
United States perhaps helping to establish a more accountable 
and effective police force. And so that's something the United 
States is going to work on and we've sort of taken that on as 
something that we're looking at how we might be able to help in 
that respect. I think the Russians are going to do something 
slightly different, perhaps helping with some of the border 
security issues because they've got a lot of expertise in that 
area.
    And there's, I think, particular concern about the southern 
border with Tajikistan and the possibility that some militants 
from Afghanistan might try to come up through that border to 
try to exploit the situation in Kyrgyzstan. So again, I think 
Russian cooperation on that would be very welcome and would 
help the Kyrgyz a lot.
    With respect to democracy, I just couldn't agree with you 
more, Mr. Chairman. I think we have a unique opportunity now to 
establish a parliamentary democracy in this country and to 
really bring the rule of law and something quite special and 
unique in this part of the world. And that's why we're putting 
considerable taxpayers' money into this because we think this 
is really a significant opportunity. And again, we're working 
very closely with the U.N., with the EU and with other donors 
to make sure that happens.
    Lastly, just let me say with respect to the U.N.--that the 
U.N., I think, is going to play an important role in this 
investigation that I talked about. There's both the domestic 
investigation that will go on and then there'll be an 
international investigation that will complement it, led by Mr. 
Kiljunen. And he has decided to draw upon the very considerable 
resources of the U.N. High Commissioner for Human Rights. So 
again, I think there'll be an important U.N. role there and 
they bring a lot of expertise to bear, as you know, on these 
issues.
    Mr. Hastings. Right. All of these things come around. I was 
just told by the staff director that Jan Kubis is the special 
envoy, who used to be the secretary general of the Organization 
for Security and Cooperation in Europe. And of course, Kimmo 
Kiljunen has played a significant role. Mr. Pitts and I know 
him. I know Kubis extremely well. But that's another thing that 
I would urge the State Department to not ignore.
    I appreciate your compliments to the Helsinki Commission. 
The staff here does an extraordinary job on staying on top of 
things around the sphere of the Helsinki groups. And please 
don't ignore us as a source of assistance as you move around.
    I had the good fortune of working very actively on the same 
desk that you hold now through several of the crises. And I 
think that then-assistant secretaries will tell you that from 
time to time, I may have had a helpful hand. And I don't mean 
that with any suggestion that I hold any keys, but sometimes, 
it's good to hear other voices--I can't help but say to you 
that I think had I been listened to, we would be in a different 
position with Uzbekistan today. I try. And I'll try again--and 
again and again--on behalf of our great country.
    Toward that end, Mr. Secretary, I thank you. Mr. Pitts, do 
you have any additional questions? I thank you so very much--
    Mr. Blake. Could I just make one comment about the Helsinki 
Commission because again, I really want to thank you for your 
engagement--your personal engagement, Mr. Chairman. It really 
does make a difference. And believe me, we take very seriously 
your advice. And the fact that you are interested and are very 
knowledgeable makes a big impact on these five countries that 
we're dealing with.
    You may know, Mr. Chairman, that we just had our annual 
bilateral consultations with Turkmenistan about a month ago. 
And I was very happy to have one of your staff, Janice Helwig, 
along with us as a member of our delegation. So I hope we can 
do that in the future because that was very helpful. And it 
sort of underscores, I think, the bipartisan support for many 
of the themes that you stress every day in what you do. And I 
really appreciate that so I just wanted to say that.
    Mr. Hastings. Thank you so very much, Mr. Secretary. It is 
deeply appreciated. All right, if our next panel would come 
forward--Mr. Anarbaev, Dr. Olcott and Dr. Beshimov--I would 
appreciate it.
    Okay, if we can just hear from Mr. Anarbaev first, then. 
Mr. Anarbaev is the charge d'affaires of the Embassy of the 
Kyrgyz Republic, and we're deeply interested in what you have 
to say, sir, please.

   ARSLAN ANARBAEV, CHARGE D'AFFAIRES, EMBASSY OF THE KYRGYZ 
                            REPUBLIC

    Mr. Anarbaev. So Mr. Chair, let me first advise you in a 
very brief way about the current political and social situation 
in the country, and give a short description of my government's 
proactive measures to keep my country in peace and stability.
    So the current situation is getting more and more stable 
but still remains fragile and shaky due to some objective 
potential destabilizing factors. We still have concerns about 
interethnic tension and distrust as well as persisting feelings 
of revenge and anger in consciousness of those who've suffered 
heavily from bloody events.
    According to the updated information we just received today 
coming from the ministry of public health, as of today, death 
loss reached 355; non-identified dead bodies, 184; and about 50 
people are still missing. The total number of wounded people 
stands for about 1,080. About 2,000 residential houses were 
burnt and destroyed.
    Anyway, so far, Kyrgyz government has practical control 
over the territory of the whole country. Mr. Chair, I'd like to 
highlight some points indicating where we are today and what 
our government is going to do for the next three months until 
we elect a new parliament next October the 10th.
    As you well know, we successfully held the referendum on 
new constitution, which is actually a good start for further 
steps in creation of all legitimate institutions. At this 
stage, we have a legitimate president of Kyrgyzstan for the 
transitional period as well as the so-called technical 
government that would act as executive power until we formulate 
the legitimate parliament.
    Just recently, we succeeded in approving creation of 
national and international investigation commissions on tragic 
events in my country. Both investigation teams are of great 
importance in terms of building up bases for reconciliation 
between the two ethnic communities. And they are also important 
for us to answer the main question: why it happened in my 
country, and what should be proactively done not to have yet 
another terrible, bloody tragedy and dangerous destabilization 
in Kyrgyzstan and in the region as a whole.
    We also succeeded in inviting OSCE special advisor police 
mission to assist national law enforcement bodies in conflict 
zones. This is really important for my country with respect to 
capacity-building of national law enforcement bodies and 
building up bases for reconciliation between the two ethnic 
communities and thus to secure stability and peace in my 
country.
    State of emergencies and curfews are still enforced in 
conflict zones, serving as impediments for would-be 
destabilization. Kyrgyz government has adopted a national 
program on stabilization of social, political and economical 
situation. According to each, a number of top-priority tasks 
and objectives has been identified for their practical 
implementation in the following three months.
    Today, as you might know, in Bishkek, we successfully held 
the first international high-level donor meeting to address a 
support package for Kyrgyzstan. In August, there would be yet 
another similar event in Almaty.
    My president, Roza Otubaeva, in her statement at the said 
high-level donor meeting in Bishkek, highlighted the following 
top priorities for short and medium-term domestic sustainable 
development. First, political reforms and social development. 
Within this track, we will shortly develop and adopt national 
program called ``back to democracy,'' which will lay a good 
base for restoration of genuine democratic values in 
Kyrgyzstan.
    Second, conducting parliamentary elections in an open, fair 
and peaceful manner. We are committed to be effectively 
prepared for holding upcoming parliamentary elections, followed 
by legitimization of all governmental agencies and state 
bodies.
    Three, fight against corruption. Four, restoration of the 
fundamental democratic principle, the rule of law. And fifth, 
maintenance of competitive economy in my country.
    And finally, one of the top priorities in implementing the 
plan of proactive measures is ongoing national and 
international humanitarian aid activities to the local 
population in conflict zones with the focus on providing food, 
medical assistance and construction materials so that people 
can obtain their new residential houses before winter season 
comes. So we are encouraged by international support to restore 
and maintain social and economic sustainable development in my 
country.
    So it's worth noting the role of OSCE in maintenance of 
stability in Kyrgyzstan. We do appreciate the role of OSCE in 
maintenance of stability in Kyrgyzstan. OSCE along with 
international community plays a crucial role in building up 
bases for interethnic reconciliation and further reinforcement 
of democracy, observance of human rights and the rule of law in 
Kyrgyzstan. With this in mind, we count on just recently 
approved OSCE decision on deployment of special advisory police 
mission in conflict zones in the south of Kyrgyzstan.
    We also count on international investigation commission on 
events in Osh and Jallal-Abad oblasts under the auspices of 
OSCE to investigate and identify the real causes of the said 
tragic events with appropriate recommendations for new Kyrgyz 
authorities for its further activities in terms of maintenance 
of national and regional security.
    As well-known OSCE Office for Democratic Institutions and 
Human Rights was and remains one of the main international 
bodies that provides reliable and internationally approved 
recommendations for preparations and holding free and peaceful 
election campaigns in OSCE countries. Hopefully, our close 
cooperation with ODIHR as well as IFES and others will bring 
good results in our joint preparatory work for upcoming 
parliamentary elections in my country to be held next October 
this year.
    So I would like to make some short comments on the upcoming 
parliamentary elections. Kyrgyzstan attaches great importance 
to upcoming parliamentary elections keeping in mind that 
democratically elected parliament will serve as starting point 
for building up a new system of good governance in the Kyrgyz 
Republic.
    One of the most important issues relating to preparatory 
and conducting elections is to secure personal and public 
security in the country. This is a crucial precondition to 
successfully hold these really important political events. To 
this end, we keep on attracting international assistance that 
might be as follows:
    First, broad and timely information support for 
multinational population at large with focus on displaying 
vigilance to would-be provocations and any intentional attempts 
to defeat elections at various levels. For this, we might 
realize some joint projects. For example, it seems to be 
reasonable if we could manage to channel program translation in 
the form of appropriate spot advertising and infomercials, as 
well as billboards and flyers in the streets.
    Second, personal precautions for all participants for 
national election campaign. Here, we need some assistance in 
support of would-be voluntary people's patrol in conflict 
zones, big cities and communities.
    And third, with respect to would-be additional consultative 
and technical assistance in maintaining stability and peace in 
conflict zones, I would suggest to invite a group of experts 
from the Office of OSCE High Commissioner on National 
Minorities to come and make on the ground some assessment of 
our urgent needs and develop a good program and recommendations 
for Kyrgyz government on proactive measures for reconciliation 
between the two ethnic communities.
    Mr. Chairman, you may ask me a question: why Kyrgyzstan has 
chosen a parliamentary form of governance? This is still a very 
controversial matter, I should say. For Kyrgyzstan, it was 
actually an audacious step in the direction of absolutely new 
form of governance, full of many unpredictable implications. 
But we did not have a choice and I will try to explain you why 
we stand for a parliamentary republic.
    For the last 19 years of the history of my country, as a 
newly independent country after the collapse of the Soviet 
Union, we did not succeed in achieving the main goal to build 
up a well-balanced system of good governance based on 
democratic institutions, justice, public accountability and 
transparency of governmental and state agencies.
    Instead, we unfortunately have had bad experience with our 
two previous presidents who actually concentrated all powers in 
their own hands and gave birth to nepotism, high levels of 
corruption, poverty and unemployment. So I share the common 
conviction that a 19-year experience of our not-successive 
presidential form of governance has become a main reason to 
change our constitution.
    In conclusion, I would like once again to extend my high 
appreciation for the U.S. government for its generous help and 
support for my country. We are encouraged by ongoing well-
coordinated international efforts to stabilize the current 
fragile situation in Kyrgyzstan by means of capacity-building 
of law enforcement bodies and other governmental agencies as 
well as the civil society sector.
    Thank you, Mr. Chairman.
    Mr. Hastings. Your Excellency, thank you for your wonderful 
presentation. Congressman Pitts and I as well as other members 
of the commission may very well submit to you questions in 
writing. But today, we are operating with votes coming up in 
just a few minutes. So we are going to ask our other witnesses 
to come forward so that he and I might hear from them. And that 
way, you won't have to answer all of the hard questions that we 
were going to ask you right now. But seriously, thank you and I 
thank the Kyrgyzstan government for your presentation, Mr. 
Charge.
    Mr. Anarbaev. Thank you, Mr. Chairman.
    Mr. Hastings. Thank you. With that in mind, if we could 
hear from Dr. Olcott and Mr. Beshimov now. And I urge you all--
you do have written statements--to the extent that you can, if 
you would summarize them, it would help us. Mr. Pitts and I are 
going to stay through the second bell. We expect it to go off 
real soon. But after that, we have to make our way to vote. So 
let's begin with you, Dr. Olcott, and ask you to abbreviate as 
best you can.

    MARTHA OLCOTT, SENIOR ASSOCIATE, CARNEGIE ENDOWMENT FOR 
                      INTERNATIONAL PEACE

    Ms. Olcott. I'll try to be very, very fast so that Dr. 
Beshimov has some time. Thank you very much for the opportunity 
to speak today. And I'd just like to make some brief comments 
from my testimony.
    The question before us is whether developments in 
Kyrgyzstan were the product of a pent-up thirst for democracy 
on the part of the population or are they a sign of state 
failure? I suggest in my remarks that the reality lies between 
the two, which really creates a dilemma and a challenge for 
U.S. policymakers in order to find ways to try to rectify the 
situations without leading to state failure itself.
    Let me just highlight a few points having to do with the 
violence in the south, the weakness of the interim government 
and what the international community might be able to do to 
speak to this.
    Why the violence in the south? I think the interim 
government has been flawed in several important ways. It lacked 
and it continues to lack strong support from many of the 
prominent political families in the southern part of the 
country where Bakiyev had been strong and has lacked a figure 
that can command respect from the country's disparate and 
relatively disorganized security forces.
    The events in mid-May when there was seizure of government 
buildings highlighted these problems. But unfortunately, the 
interim government was only able to paper over these tensions 
and competition between the Kyrgyz and Uzbek groups and within 
Kyrgyz groups rather than addresses them and failed to create a 
strong figure in the security--or, a strong response and modify 
the security structure or begin the reform of a security 
structure.
    The end result is well-known. And as we have heard today, 
in the aftermath of the ethnic violence, especially local 
groups in local government in Southern Kyrgyzstan have chosen 
to make the Uzbeks scapegoats for a lot of this violence, so I 
won't stay on this.
    While the violence has ended, I think that the leadership, 
as I have mentioned, continues to target the Uzbeks in the 
south. And unfortunately, the national leadership has de facto 
consented to the continued situation in the south, this 
continuation of finding blame among the Uzbeks through their 
silence on these questions. I'll come back to that at the very 
last minute.
    Let me just pause on the referendum in the constitution 
briefly. The referendum, I think, has not solved the problems 
of governance in Kyrgyzstan. They've simply pushed them forward 
in time. The parliamentary government--the notion that this 
parliamentary system will succeed in providing checks and 
balances, I think, is somewhat naive. It could well turn into a 
division of the spoils among Kyrgyzstan's leading political 
figures. That really will require scrutiny on the part of the 
acting president and those who come to power.
    The competition over seats in the parliament because they 
will form the government is really going to create a real 
challenge for ODIHR. It will be critical that these elections 
be conducted in the most transparent fashion possible because 
of how much is at stake in terms of the election process 
itself. Whoever wins will get to try, at least, to form the 
government.
    So to me, it's not a question of training, as Secretary 
Blake said. It's also a question of holding the government 
responsible for maintaining transparent elections and to think 
about using conditionality of some further assistance if the 
government doesn't meet the standards that ODIHR holds before 
them.
    I think, finally, I think that the challenges before the 
current leadership are really considerable. Bakiyev was ousted 
because the population was led to believe that their lives were 
bad because their leaders were corrupt. There is nothing in the 
future scenario that implies that their lives are going to 
improve anytime soon.
    The donors' conference that was held today has promised 
$600 million of assistance this year, which even if it comes 
forward, is still less than the budget deficit that the Kyrgyz 
government faces for this coming year. The problems that 
they're going to face are really severe.
    I think that it's impossible to expect the government now 
to begin telling the people that they have to do belt-
tightening and expect hard times before the election. But I 
think that it's really incumbent upon this committee, the OSCE, 
the U.S., more generally, to make sure that a reality check is 
held for the Kyrgyz government and that the population begin to 
not only learn to live better together in a single state inter-
ethnically but that they realize that it's going to be a slow 
recovery period; that they won't even get to where they were 
before.
    I do think--to highlight the question of a Kazakh 
chairmanship), I think that it does give us opportunities to do 
more--to do even more with the OSCE than it's done. And I think 
that especially the bilateral Kazakh-Kyrgyz economic commission 
is really important to serve as a way to stretch and better 
target the assistance money that'll be coming forward. Thank 
you very much.
    Mr. Hastings. Dr. Beshimov, if you will go forward. Joe, if 
you have to go, I'll stay another five minutes but then I'll 
have to go.

 BAKYT BESHIMOV, VISITING SCHOLAR, MASSACHUSETTS INSTITUTE OF 
                           TECHNOLOGY

    Mr. Beshimov. Thank you very much, Mr. Chairman. I would 
like to thank the entire Helsinki Commission and you, 
personally, for positive support of a Kyrgyzstan which today 
has a new chance and a history of the Soviet Union to succeed 
in democratization.
    Therefore, the content of my speech is motivated with a 
strong desire to set up a prudent attitude to this situation to 
get rid of complacency and really do not miss where you need a 
chance to set up the democratic institutions. Therefore, I will 
focus my attention to very important points. The written text 
of my speech has been distributed therefore I will just mention 
a few.
    First of all, I would like to argue that it is essential 
for us all not to overestimate the referendum of June 23rd as a 
step forwards stability for it may not be.
    The referendum of June 23rd was a self-legitimizing 
initiative of the Interim government. It took place only a week 
after the ethnic clashes, when between 100,000 to 400,000 
citizens of Kyrgyzstan--mostly ethnic Uzbeks--had been 
displaced. Instead of postponing the referendum to focus 
squarely on addressing the magnitude of the tragedy, the 
interim government used the tragedy to pressure citizens to 
approve of the referendum. Members of the interim government 
frequently stated, if you are for peace, vote for the 
referendum.
    This brazen manipulation occurred when most citizens, at 
least in the south of Kyrgyzstan, not only couldn't vote but 
simply couldn't make an informed decision. We know that even 
OSCE, fearing for safety, decided not to send a large observer 
mission, limiting to only 36 observers.
    Being intimately familiar with politics in Kyrgyzstan, I 
can assure you that in the future, some political forces in 
Kyrgyzstan will use all these conditions under which the 
referendum took place to question the validity of its results 
and the legitimacy of the current government.
    Yesterday, almost half of the influential parties who are 
running for election--they announced their disagreement with 
the shift to the parliamentarian system and they announced that 
they'll urge the people of Kyrgyzstan to return again to a 
presidential system. And knowing this, how can anyone not only 
recognize the results of the referendum but also see it as a 
step toward stability?
    Of course, it's most important for the international 
community and very respected and esteemed international 
organizations as the OSCE to support the Kyrgyz government 
after the referendum. It was the willingness to set up a 
positive attitude for the interim government. But it's 
important to take into account what happened in our previous 
history.
    In June 2005, the international community rushed to 
congratulate President Bakiyev, who won the presidential 
elections in the aftermath of March 2005 coup that violently 
overthrew the previous president. Unsurprisingly, Bakiyev then 
used his international support to strengthen his power through 
fabricated parliamentarian and presidential elections in 2007 
and 2009, effectively denigrating the country to a de facto 
autocracy.
    Still before, Kyrgyzstan's first president, Askar Akaev, 
for years enjoyed the support, and almost adulation, of the 
international community, which he masterly manipulated to 
aggrandize his power and sow the seeds of pervasive instability 
in Kyrgyzstan.
    I would like to underline what the interim government has 
had hence on these ethnic clashes in the south because in the 
battle for power after the coup in April, they involved the 
ethnic Uzbek community in political struggle. And this 
politicization brought Kyrgyzstan to this tragedy. Therefore, 
it is important to ask kindly the responsibility of the 
provisional government and help them to be accountable before 
their citizens.
    What happened in June in the south, is a sign that despite 
two regime changes in the past five years, the nature of a 
ruling class in Kyrgyzstan remains largely unchanged: its 
interests, its survival and its enrichment remain far above the 
interests of its people. We all know that, that never leads to 
democracy or stability.
    It's important for me to say about the role of external 
powers in Kyrgyzstan. Leaders of both the United States and 
Russia suggest that they are pursuing a ``pragmatic 
partnership'' in their relations over Kyrgyzstan and Central 
Asia as a whole. However, the reality on the ground suggests 
that Russia is using this pragmatic partnership as a 
smokescreen to continue and intensify its strategy of 
reestablishing Central Asia precisely as its zone of privileged 
interests.
    The people of Kyrgyzstan would hope that while the U.S. 
pursues a partnership with Russia and Russia manipulates it, 
Kyrgyzstan would not terminally lose its sovereignty nor suffer 
intractable instability for years to come.
    Mr. Hastings. Doctor, I most regrettably have to proceed to 
cast a vote at this time. You did provide us with your written 
testimony. I do have a couple of questions and I would--I'll 
submit them to you--to you and Dr. Olcott. My deep apologies. 
And I'm fond of saying--and the staff gets tired of me hearing 
it--it's hard to apologize for working. I'll talk to you. Thank 
you. The hearing is closed.

                                  <all>




                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
